      DEPARTMENT OF HEALTH & HUMAN SERVICES                              Office of Inspector General


                                                                         Washington, D.C. 20201




May 16, 2011

TO:            Farzad Mostashari, M.D., Sc.M.
               National Coordinator for Health Information Technology
               Office of the National Coordinator for
                Health Information Technology


FROM:          /Daniel R. Levinson/
               Inspector General


SUBJECT:       Audit of Information Technology Security Included in Health Information
               Technology Standards (A-18-09-30160)


The attached final report provides the results of our review of information technology security
included in health information technology standards.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that the Office of Inspector
General (OIG) post its publicly available reports on the OIG Web site. Accordingly, this report
will be posted at http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or your
staff may contact Lori S. Pilcher, Assistant Inspector General for Grants, Internal Activities, and
Information Technology Audits, at (202) 619-1175 or through email at Lori.Pilcher@oig.hhs.gov.
We look forward to receiving your final management decision within 6 months. Please refer to
report number A-18-09-30160 in all correspondence.


Attachment
Department of Health & Human Services
            OFFICE OF
       INSPECTOR GENERAL




        AUDIT OF
 INFORMATION TECHNOLOGY
   SECURITY INCLUDED IN
   HEALTH INFORMATION
  TECHNOLOGY STANDARDS




                   Daniel R. Levinson
                    Inspector General

                       May 2011
                     A-18-09-30160
                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health & Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Office of the National Coordinator for Health Information Technology

On April 27, 2004, Executive Order 13335 created within the Department of Health & Human
Services (HHS) the Office of the National Coordinator for Health Information Technology
(ONC) to lead the development and nationwide implementation of an interoperable health
information technology (HIT) infrastructure. The National Coordinator for Health Information
Technology was charged with developing, maintaining, and directing the implementation of a
strategic plan to guide the nationwide implementation of interoperable HIT that will reduce
medical errors, improve quality, produce greater value for health care expenditures, ensure that
patients’ individually identifiable health information is secure and protected, and facilitate the
widespread adoption of electronic health records (EHR).

In 2005, ONC established the Health Information Technology Standards Panel (HITSP) as a
cooperative partnership between the public and private sectors to harmonize and integrate
standards for sharing information among organizations and systems. HITSP has developed
interoperability specifications, which define the transactions between systems, including the
message, the content, and the terminology for the information exchange. Interoperability
specifications also give directions to health care providers about implementing EHRs and sharing
information among health organizations and systems. In developing the interoperability
specifications, HITSP considered overarching principles and concepts derived from an analysis
of Federal and State laws and regulations.

Health Information Technology for Economic and Clinical Health Act

Through the Health Information Technology for Economic and Clinical Health (HITECH) Act,
Title XIII of the American Recovery and Reinvestment Act of 2009 (P.L. No. 111-5), Congress
reestablished ONC by statute and directed ONC to develop a nationwide HIT infrastructure that
allows for the electronic use and exchange of information, specifically EHRs. Important
responsibilities for ONC included recommending to the HHS Secretary the adoption of
standards, implementation specifications, and certification criteria by December 31, 2009. In
addition, the HITECH Act requires ONC to update its strategic plan to include specific
objectives, milestones, and metrics with respect to, among other matters, the use of an EHR by
every individual in the United States by 2014; ensuring appropriate authorization and electronic
authentication of health information; and specifying technologies or methodologies for rendering
health information unusable, unreadable, or indecipherable to unauthorized users.

Privacy and Security Protections

The responsibility to maintain the privacy and security of health information is dispersed among
several Federal agencies, including three within HHS: ONC, the Centers for Medicare
& Medicaid Services (CMS), and the Office for Civil Rights (OCR).




                                                 i
General Information Technology Security Controls Versus Application Controls

General information technology (IT) security controls are the structure, policies, and procedures
that apply to an entity’s overall computer operations, ensure the proper operation of information
systems, and create a secure environment for application systems and controls. General IT
security controls work together to ensure a secure environment for health data. Application
controls, in contrast, function inside systems or applications to ensure that they work correctly.
Application controls may be easily bypassed if general IT security controls are missing or
ineffective.

OBJECTIVE

Our objective was to assess the IT security controls in HIT standards.

SUMMARY OF FINDING

We found that ONC had application controls in the interoperability specifications, but there were
no HIT standards that included general IT security controls. At the time of our audit, the
interoperability specifications were the ONC HIT standards and included security features
necessary for securely passing data between EHR systems (e.g., encrypting transmissions
between EHR systems). These controls in the EHR systems were application security controls,
not general IT security controls.

We reviewed the Interim Final Rule for Health Information Technology: Initial Set of
Standards, Implementation Specifications, and Certification Criteria for Electronic Health
Record Technology, issued in January 2010, and the Final Rule published in the Federal
Register in July 2010. Both documents discuss security in terms of application controls; they do
not contain general IT security controls. A few examples of general IT security controls
emphasized by the Office of Management and Budget and the National Institute of Standards and
Technology but not addressed by ONC are:

   •   encrypting data stored on mobile devices, such as compact disks and thumb drives;

   •   requiring two-factor authentication when remotely accessing an HIT system; and

   •   patching the operating systems of computer systems that process and store EHR.

We found the lack of these and other general IT security controls during prior Office of Inspector
General audits at Medicare contractors, State Medicaid agencies, and hospitals. The
vulnerabilities that we noted, combined with our findings in this audit, raise concern about the
effectiveness of IT security for HIT if general IT security controls are not addressed.




                                                ii
RECOMMENDATIONS

We recommend that ONC:

   •   broaden its focus from interoperability specifications to include well-developed general
       IT security controls for supporting systems, networks, and infrastructures;

   •   use its leadership role to provide guidance to the health industry on established general IT
       security standards and IT industry security best practices;

   •   emphasize to the medical community the importance of general IT security; and

   •   coordinate its work with CMS and OCR to add general IT security controls where
       applicable.

OFFICE OF THE NATIONAL COORDINATOR FOR
HEALTH INFORMATION TECHNOLOGY COMMENTS

ONC concurred with our recommendations and described the actions that it was taking to
address them. ONC’s comments are included in their entirety as the Appendix.




                                                iii
                                                  TABLE OF CONTENTS

                                                                                                                                       Page

INTRODUCTION....................................................................................................................... 1

          BACKGROUND .............................................................................................................. 1
              Office of the National Coordinator for Health Information Technology ............. 1
              Health Information Technology Standards Panel ................................................. 1
              Health Information Technology for Economic and Clinical Health Act .............. 1
              Privacy and Security Protections .......................................................................... 2
              General Information Technology Security Controls
                Versus Application Controls .............................................................................. 3

          OBJECTIVE, SCOPE, AND METHODOLOGY ............................................................ 3
               Objective ............................................................................................................... 3
               Scope ..................................................................................................................... 3
               Methodology ......................................................................................................... 3

FINDING AND RECOMMENDATIONS ................................................................................ 4

          ADOPTING GENERAL INFORMATION TECHNOLOGY
          SECURITY CONTROLS ................................................................................................. 4
               Federal Requirements ........................................................................................... 4
               General Information Technology Security Controls Needed ............................... 6

          CONCLUSION ................................................................................................................. 9

          RECOMMENDATIONS .................................................................................................. 9

          OFFICE OF THE NATIONAL COORDINATOR FOR
          HEALTH INFORMATION TECHNOLOGY COMMENTS ......................................... 9

APPENDIX

          OFFICE OF THE NATIONAL COORDINATOR FOR
          HEALTH INFORMATION TECHNOLOGY COMMENTS




                                                                     iv
                                     ACRONYMS

CD       compact disk
CMS      Centers for Medicare & Medicaid Services
EHR      electronic health record
FISCAM   Federal Information System Controls Audit Manual
HHS      Department of Health & Human Services
HIPAA    Health Insurance Portability and Accountability Act of 1996
HIT      health information technology
HITECH   Health Information Technology for Economic and Clinical Health Act
HITSP    Health Information Technology Standards Panel
IT       information technology
NIST     National Institute of Standards and Technology
OCR      Office for Civil Rights
OIG      Office of Inspector General
OMB      Office of Management and Budget
ONC      Office of the National Coordinator for Health Information Technology
OS       operating system
PHSA     Public Health Service Act




                                         v
                                       INTRODUCTION

BACKGROUND

Office of the National Coordinator for Health Information Technology

On April 27, 2004, Executive Order 13335 created within the Department of Health & Human
Services (HHS) the Office of the National Coordinator for Health Information Technology
(ONC) to lead the development and nationwide implementation of an interoperable health
information technology (HIT) infrastructure to improve the quality and efficiency of health care.
The National Coordinator for Health Information Technology (National Coordinator) was
charged with developing, maintaining, and directing the implementation of a strategic plan to
guide the nationwide implementation of interoperable HIT in both the public and private health
care sectors that will, by 2014, reduce medical errors, improve quality, produce greater value for
health care expenditures, ensure that patients’ individually identifiable health information is
secure and protected, and facilitate the widespread adoption of electronic health records (EHR).

Health Information Technology Standards Panel

In 2005, ONC established the Health Information Technology Standards Panel (HITSP) as a
cooperative partnership between the public and private sectors to harmonize and integrate
standards for sharing information among organizations and systems. HITSP is a
multistakeholder organization that has developed interoperability specifications through a
voluntary, consensus-based process. Interoperability specifications define the transactions
between systems, including the content and the terminology for the information exchange.
Interoperability specifications also give directions to health care providers about implementing
EHRs and sharing information among health organizations and systems.

Since 2007, HITSP has developed and refined its interoperability specifications to integrate
already existing and emerging standards and to align overlapping standards. In developing the
interoperability specifications, HITSP considered overarching principles and concepts derived
from an analysis of Federal and State laws and regulations.

Health Information Technology for Economic and Clinical Health Act

The Health Information Technology for Economic and Clinical Health (HITECH) Act, Title XIII
of the American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act),
amended the Public Health Service Act (PHSA) to improve health care quality, safety, and
efficiency through the promotion of HIT and the electronic exchange of health information.

Through HITECH, Congress reestablished ONC by statute and directed ONC to develop a
nationwide HIT infrastructure that allows for the electronic use and exchange of information,
specifically EHRs. Important responsibilities for ONC included recommending to the HHS
Secretary the adoption of standards, implementation specifications, and certification criteria by
December 31, 2009. In addition, HITECH requires ONC to update its strategic plan to include
specific objectives, milestones, and metrics with respect to, among other matters, the use of an

                                                 1
EHR by every individual in the United States by 2014; ensuring appropriate authorization and
electronic authentication of health information; and specifying technologies or methodologies for
rendering health information unusable, unreadable, or indecipherable to unauthorized users.
HITECH permits ONC to recommend and the HHS Secretary to apply the standards developed
by HITSP before the law’s enactment.

To facilitate the development and adoption of an HIT infrastructure and standards, HITECH
created two committees: the HIT Policy committee and the HIT Standards committee. The
National Coordinator is a leading member of both committees. The Policy committee makes
policy recommendations to the National Coordinator relating to the implementation of a
nationwide HIT infrastructure. The Standards committee recommends to the National
Coordinator standards, implementation specifications, and certification criteria for the electronic
exchange and use of health information.

Privacy and Security Protections

The responsibility to maintain the privacy and security of health information is dispersed among
several Federal agencies, including three entities within HHS.

Office of the National Coordinator

Section 13101 of HITECH (PHSA §§ 3001(b)(1), 3001(c)(3)(A), and 3002(b)(2)(B), as
amended) states that ONC and its committees must develop standards and a framework for the
protection and security of health information being exchanged through a nationwide health
information network. ONC published an Interim Final Rule (75 Fed. Reg. 2013 (2010))
containing the initial set of standards. ONC finalized the rule, which contains provisions that
address privacy and security protection (75 Fed. Reg. 44590 (2010)).

Centers for Medicare & Medicaid Services

Pursuant to Title IV of the Recovery Act, which authorizes Medicare and Medicaid incentive
payments to eligible professionals and hospitals for the meaningful use of EHR technology, the
Centers for Medicare & Medicaid Services (CMS) promulgated its Final Rule defining
“meaningful use” (75 Fed. Reg. 44313 (2010)). This definition includes the protection of health
data and requires that eligible professionals and hospitals conduct a risk analysis of their EHR
systems and implement updates to address identified vulnerabilities.

Office for Civil Rights

The Office for Civil Rights (OCR) oversees compliance with the Privacy and Security Rules of
the Health Insurance Portability and Accountability Act of 1996 (HIPAA). On September 23,
2009, OCR’s Interim Final Rule (74 Fed. Reg. 42740 (2009)) for breach notifications of
unsecured sensitive information became effective. Pursuant to HITECH, the Interim Final Rule
established regulations requiring covered entities to notify affected individuals, the media, and
the HHS Secretary following a breach of their protected health information.



                                                 2
General Information Technology Security Controls Versus Application Controls

General information technology (IT) security controls are the structure, policies, and procedures
that apply to an entity’s overall computer operations, ensure the proper operation of information
systems, and create a secure environment for application systems and controls. Some primary
objectives of general IT security controls are to protect networks, computer systems, and data.
General IT security controls work together to ensure a secure environment for health data.

Application controls, in contrast, function inside systems or applications to ensure that they work
correctly. Application controls may be easily bypassed if general IT security controls are
missing or ineffective.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to assess the IT security controls in HIT standards.

Scope

We assessed ONC’s process for creating and adopting interoperability specifications as of
April 2009. We also reviewed the Interim Final Rule for Health Information Technology: Initial
Set of Standards, Implementation Specifications, and Certification Criteria for Electronic Health
Record Technology, issued in January 2010, and the Final Rule published in the Federal
Register in July 2010. We did not review ONC’s overall internal control structure.

We performed our fieldwork at ONC headquarters in Washington, DC, from June through
August 2009 and from February through August 2010. After the end of our initial fieldwork in
2009, ONC management provided additional information to demonstrate the steps that ONC had
taken to address the security of sensitive information.

Methodology

To accomplish our objective, we:

   •    reviewed applicable Federal laws, regulations, and guidance from the Office of
        Management and Budget (OMB) and the National Institute of Standards and Technology
        (NIST);

   •    interviewed ONC staff; and

   •    reviewed supporting documentation.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions

                                                 3
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusion based on our audit objective.

                          FINDING AND RECOMMENDATIONS

We found that ONC had application controls in the interoperability specifications, but there were
no HIT standards that included general IT security controls. At the time of our audit, the
interoperability specifications were the ONC HIT standards and included security features
necessary for securely passing data between EHR systems (e.g., encrypting transmissions
between EHR systems). These controls in the EHR systems were application security controls,
not general IT security controls.

We reviewed the Interim Final Rule issued in January 2010 and the Final Rule published in the
Federal Register in July 2010. Both documents discuss security in terms of application controls;
they do not contain general IT security controls. A few examples of general IT security controls
emphasized by OMB and NIST but not addressed by ONC are:

   •   encrypting data stored on mobile devices, such as compact disks (CD) and thumb drives;

   •   requiring two-factor authentication when remotely accessing an HIT system; and

   •   patching the operating systems (OS) of computer systems that process and store EHR.

We found the lack of these and other general IT security controls during prior Office of Inspector
General (OIG) IT audits at Medicare contractors, State Medicaid agencies, and hospitals. The
vulnerabilities that we noted, combined with our findings in this audit, raise concern about the
effectiveness of IT security for HIT if general IT security controls are not addressed.

ADOPTING GENERAL INFORMATION TECHNOLOGY
SECURITY CONTROLS

Federal Requirements

We identified the following Federal security standards for the protection of Federal data as
reasonable benchmarks to assess the adequacy of the general IT security controls established for
EHRs.

Recovery Act

The Recovery Act added section 3001 of the PHSA, which states that the National Coordinator
“shall perform [his or her] duties … in a manner consistent with the development of a nationwide
health information technology infrastructure that allows for the electronic use and exchange of
information that – (1) ensures that each patient’s health information is secure and protected, in
accordance with applicable law.” The Recovery Act states that the National Coordinator should,
in consultation with appropriate Federal agencies, update the Federal Health IT Strategic Plan to
include specific objectives, milestones, and metrics. The update should:

                                                4
      •    include the “incorporation of privacy and security protections for the electronic exchange
           of individually identifiable health information” and

      •    use “security methods to ensure appropriate authorization and electronic authentication of
           health information and specifying technologies or methodologies for rendering health
           information unusable, unreadable, or indecipherable” to unauthorized users
           (section 3001(c)(3)(A)).

Office of Management and Budget

In OMB Memorandum M-06-16, “Protection of Sensitive Agency Information,” OMB
recommends:

      •    encrypting “all data on mobile computers/devices which carry agency data unless the data
           is determined to be non-sensitive, in writing, by your Deputy Secretary or an individual
           he/she may designate in writing” and

      •    allowing “remote access only with two-factor authentication where one of the factors is
           provided by a device separate from the computer gaining access.”

National Institute of Standards and Technology Special Publication 800-40

NIST Special Publication 800-40, revision 2, Creating a Patch and Vulnerability Management
Program, states that:

           Patch and vulnerability management is a security practice designed to proactively
           prevent the exploitation of IT vulnerabilities that exist within an organization….
           Timely patching of security issues is generally recognized as critical to
           maintaining the operational availability, confidentiality, and integrity of IT
           systems…. Most major attacks in the past few years have targeted known
           vulnerabilities for which patches existed before the outbreaks [Executive
           Summary, November 2005].

Federal Information System Controls Audit Manual

The Federal Information System Controls Audit Manual (FISCAM) states that general IT
security controls are the structure, policies, and procedures that apply to an entity’s overall
computer operations, ensure the proper operation of information systems, and create the
environment for application systems and controls. General controls protect networks, safeguard
data, and prevent unauthorized access to software. The effectiveness of general controls is a
significant factor in determining the effectiveness of application controls. Without effective
general controls, application controls “can generally be rendered ineffective by circumvention or
modification.” 1

1
    Government Accountability Office, FISCAM, section 1.2, February 2009.


                                                        5
General Information Technology Security Controls Needed

Health Information Technology Standards

ONC did not have HIT standards that included general IT security controls. A few examples of
general IT security controls are encrypting data stored on mobile devices, using two-factor
authentication, and updating (patching) the OSs that process and store sensitive health-related
information. For example:

    •   Encryption is required by ONC interoperability specifications for data transmission
        between systems. However, encrypting data stored on portable media is not included in a
        standard, creating a potential vulnerability if unprotected HIT data were copied to
        portable media, such as a CD or flash drive, and transported to another location.
        Encrypting data stored on portable media is not included in any HIT standard.

    •   Two-factor authentication is not required by the HIT standards. Two-factor
        authentication is a security process in which the user provides two means of
        identification. Typically, this requires a physical token, such as a card, and something
        memorized, such as a security code (i.e., “something you have and something you
        know”).

    •   Patching computer systems, which includes timely security updates and enhancements to
        protect IT systems from viruses, malware, and other attacks, is not required by the HIT
        standards.

Lack of any of these or other IT security controls can expose HIT systems to a host of problems.
Each year, Cisco Systems issues a security report that encompasses threat information, trends,
and a snapshot of the state of IT security. The Cisco 2009 Annual Security Report stressed the
importance of patching computer systems, our third example, by stating:

        Conficker, the big botnet 2 of 2009, gained traction because computer users failed
        to download a patch that was readily available from Microsoft. Although most of
        today’s attacks are launched via social media networks, criminals still look for
        ways to exploit these old-style vulnerabilities.

We found these three vulnerabilities, as well as many others, during OIG IT audits at Medicare
contractors, State Medicaid agencies, and hospitals.




2
 A botnet is a large group of computers taken over by a hacker and frequently used without the computer owners’
knowledge.


                                                        6
Interoperability Specifications

Interoperability specifications do not address general IT security controls recommended by NIST
and best practices. For example, interoperability specifications do not address controls on the
networks that the EHR applications use. Dr. John Halamka, chairman of HITSP and
vice-chairman of the Standards Committee, stated that security is broader than just EHR
interoperability standards and EHR applications:

           Security is not just about using the right standards or purchasing products
           that implement those standards. It’s also about the infrastructure on which
           those products run and the policies that define how they’ll be used. A great
           software system that supports role-based security is not so useful if everyone is
           assigned the same role and its accompanying access permissions. Similarly,
           running great software on an open wireless network could compromise privacy.…
           Security is a process, not a product. Hackers are innovative, and security
           practices need to be constantly enhanced to protect confidentiality. Security is
           also a balance between ease of use and absolute protection. The most secure
           library in the world—and the most useless—would be one that never loaned out
           any books.… Security is an end-to-end process. The health care ecosystem is
           as vulnerable as its weakest link. Thus, each application, workstation, network
           and server within an enterprise must be secured to a reasonable extent. The
           exchange of health care information between enterprises cannot be secured if the
           enterprises themselves are not secure. 3 [Emphasis in the original.]

Health Information Technology Standards Panel’s Focus

HITSP itself has said that it did not intend to resolve privacy or security policy issues in its
standards-making process:

           The HITSP SPI-TC 4 designed the constructs described in this Technical Note to
           support a wide variety of security and privacy policies and technical
           frameworks…. HITSP has not attempted to resolve privacy or security policy
           issues, risk management, healthcare application functionality, operating systems
           functionality, physical control specifications, or other low-level specifications….
           [Emphasis in the original.] 5

At the time of our review, the meeting transcripts and reports from the Standards committee and
its Security subcommittee showed recommendations for encrypting data on portable devices but
no recommendations relating to two-factor authentication, system patching, or any other general
IT security issues. At the end of our audit period, the Standards committee had not acted on
encrypting data on portable devices.

3
    John Halamka, “Opinion: E-health security requires a delicate balance,” ComputerWorld, p. 34, October 5, 2009.
4
    Security, Privacy, and Infrastructure Domain Technical Committee.
5
    HITSP, Security and Privacy Technical Note, TN 900, section 1.1.1, October 2007, revised July 2009.

                                                          7
Additional Office of the National Coordinator Documentation

After the end of our fieldwork, ONC gave us documents to show its position on general IT
security:

   •   Four documents, published after our initial fieldwork, related to EHR system
       certification.

   •   One document, from OCR and published after our initial fieldwork, was on breach
       notification and the way in which the use of encryption would negate the need for
       notification. ONC told us that this would encourage the use of encryption.

   •   ONC provided documentation on three grants that it had funded. We found that two of
       the grants (posted after our fieldwork) might have enhanced general IT controls because
       they discussed general IT security, but they did not address the specific conditions found
       in this report even though the tasks in the two grants included those conditions:

          o One grant will establish the Strategic Health IT Advanced Research Projects
            program, which will fund research that focuses on identifying technology
            solutions to problems impeding broad adoption of HIT, including HIT security.

          o Another grant will establish at least 70 Regional Extension Centers and a national
            HIT Research Center to offer technical assistance, guidance, and information on
            best practices, including those on IT security issues, to support and accelerate
            health care providers’ efforts to become meaningful users of EHRs.

   •   Three documents related to HIPAA security: one was from NIST and two were from
       CMS. ONC management told us that it relies on the HIPAA Security Rule to ensure that
       appropriate IT security controls are in place.

Prior Office of Inspector General Work and the
Health Insurance Portability and Accountability Act of 1996

Our concern with the effectiveness of the HIPAA Security Rule is based on work that we did on
CMS’s oversight of covered entity compliance with HIPAA and the significant weaknesses we
found in IT security at eight hospitals. Examples of the weaknesses identified at the eight
hospitals included:

   •   unprotected wireless networks,

   •   lack of vendor support for OSs,

   •   inadequate system patching,

   •   outdated or missing antivirus software,


                                                 8
   •   lack of encryption of data on portable devices and media,

   •   lack of system event logging or review,

   •   shared user accounts, and

   •   excessive user access and administrative rights.

Our experience with HIPAA implementation in hospitals does not support ONC’s position that
HIPAA provides adequate general IT security. We also have similar findings in Medicare and
Medicaid audits.

CONCLUSION

We found that the interoperability specifications, the Interim Final Rule, and the Final Rule did
include some security features necessary for securely passing data between systems. However,
ONC did not have standards that included general IT security controls, which need to be
addressed to ensure a secure environment for health data.

In addition, ONC deferred at this time to the HIPAA Security Rule for addressing IT security for
HIT. Our HIPAA reviews identified vulnerabilities in the HHS oversight function and the
general IT security controls. Those vulnerabilities in hospitals, Medicare contractors, and State
agencies, combined with our findings in this audit, raise concern about the effectiveness of IT
security for HIT if general IT security controls are not addressed by ONC.

RECOMMENDATIONS

We recommend that ONC:

   •   broaden its focus from interoperability specifications to include well-developed general
       IT security controls for supporting systems, networks, and infrastructures;

   •   use its leadership role to provide guidance to the health industry on established general IT
       security standards and IT industry security best practices;

   •   emphasize to the medical community the importance of general IT security; and

   •   coordinate its work with CMS and OCR to add general IT security controls where
       applicable.

OFFICE OF THE NATIONAL COORDINATOR FOR
HEALTH INFORMATION TECHNOLOGY COMMENTS

ONC concurred with our recommendations. ONC’s comments are included in their entirety as
the Appendix.



                                                 9
APPENDIX
                                                                                                                               Page 1 of5


APPENDIX: OFFICE OF THE NATIONAL COORDINATOR FOR HEALTH 

           INFORMATION TECHNOLOGY COMMENTS 





        DEPARTMENT OF HEALTH & HUMAN SERVICES
                                                                                                         Officc Df!be N. ,,,,..I CoonIi.... or
                                                                                                         for Health Informalion T«hIlCIDV
                                                                                                         W..h,"aton, D.C. 20201


      DATE:           Man:h 23, 20] I

      TO:            Daniel R. Levinson
                     Inspector General

      FROM:          David Blumenthal
                     N.tiolWll CoordiMtor for Health Information Technology

      SUBJECT:       Office of Inspector General Draft Report: "Audit oflnformation Teclmology Sec..mty
                     Included in Health Information Technology Standards (A-18.Q9-30160)

     Thank you for the OppOrtunity to review and comment on the above rcferm.ud Office Qflnspector Gencrlli
     (OIG) draft report. The Office: of the National Coordin.o.tor for Health Infonnation Tcchnology (ONC)
     appre<:iatcs me effort and rcsOUl'CeS DIG has invested to re5Cuch and report on ONe's activilies reLated!O
     Health Information Technology (health 11) standard$.

     ONe recognizes the crucial role of bcalth IT se<:urity in maintaining the public's trust in health IT and
     bealth information exchange. In its carly stage!, ONe cOJlUllctcd with the Health Information Technology
     Standards Panel (HITSP) as an ANS I-accredited body to $elect and harmonize beahhcare data slandards
     that are foundational to the interopernbility use cases identified by !he American Health InfolIllIuion
     Conununity (AHIC), a Fe deral Advisory Committee Act Conun inee (FACA). Uoder contract willi ONC
     from 2005lbrough 2010, HITSP establislled a Security and Privacy Technical Commiuee, which identified
     and recommended security standards lIIat Cllt across all AHIC'. IISC cases. These sUlndards were
     referenced in published interoperability specifications. Beginning in January 2008, the HHS Secretary
     o fficially rerognized a number of HITSP-produced interopCfll.bility specifications as HHS policy.' The
     first sct ofHITSP interoperBbility speciflC&tions incorporated security features sucb as trlInSmission
     encryption, audit loggi ng, e ntity 1llI1IIentication, digital signatures, access controls, and rights management.
     These standards were also inCOIpOTated into !be certification process fonnerly managed b y !be Certification
     Commission for Health IT (COlin. An open source health information ~change product, CONNECT,
     developed by a 29-agency cooperative agreement (the Fe deral Health Arehitcc!\Jft') LnoolpOrates these
     recogoized standards.

     The focus ofstaodards activity shifted with the enactment of the Health Information Technology for
     Economic and Clinical Health (H1TECH) Act, which created a framework for providing Medicare and
     Medicaid incentive payme nts for the me aningful use of certified electronic health record (EH R)
     technology. HITEOI aiso established the Health IT Policy Comminee (HJTPC) and the Health IT
     Standards Committee (HITSC), AHIC's SllCCessors. Uoder HITECH and with a new FACA panel in place,
     the methodology and scope ofONC 's .'<Ccurity standards activities evolved from a trlInS3Ction-level
     approach 10 a proliuct-orienled approach consistent with the statutory mandate lIIat ONC certify health IT,
     inchlding EHR technology. The HHS Centers for Medicare and Medicaid (CMS) EHR Incentive Programs
     provide incentive payments to eligible health care providers panicipating in these programs only when !hey
     adopt unified EHR technology and use it to achieve meaningful use.

     The HJTSC Privacy and Security Working Group formulated its standards recommendations UlIing the
     HITSP standards as its basis. Considering the $CCWity standards recommendations from the HITSC, and

     , UndeT Executive Order 134]0, recognition is !he process by which standards are required to be
     incorporated in all new or significantly upgraded Federal information systems.
                                                                                                                     Page 2 of5




after analyzing e.>:tell$ive public comment on ONC's Intcrim FiDa l Rule, ONC publisbed the Health
lnfnrmation Technology: Initial Set ofSlanlbrds, Implementation Spoci ficatioll$, and Certification Crileria
for Electronic Health RC(:ord Tc(:Mology Final Rule on Jul y 28, 2010, simultaneously with CMS's final
ru le on the Medicare and Medicaid ERR lneentive Program. The certification criteria in ONC 's Final Rule
included requirements and standards that EHR technology support important gencntl IT security control
capabilities: encryption of electronic Protected Health Information (ePHI) at rest and in motion; access
contro ls to prevent unauthorized viewing Or use of ePHI ; and message integrity chc:cl<ing. These
requirements an:: intended to allow bealth IT adoptCfS 10 achieve meaningful usc objC(:tivc 14: " Protect
electronic bealth information created or maintained by the certified EHR tcc hnology through the
implementation of appropriate ICchnica l capabilities." The measurement criterion for this objective
requires adopters to ''Conduct or review a SC(:uri ty risk analysis in accordance with the requirements under
45 CFR 164.308(a)( l ) and implement security updates as lIC(;esSIl)' and correct identi fied security
deficiencies IS part of its risk management process") , adopting a well-tecognized risk based approach to
managing security. Consequently, the meaningfu l use Stage I rule specifically requires bealth IT adopters
to identify and correct any security deficieJICies. "There an:: a number of general health IT standards,
including the Security Rule of the Health Insurance Ponability and Accountability Act (HIPAA), as weil l\!!
federal sC(:urity frameworks which havc served as best practices for the general public, including those
developed by the National lllStiNIC for Standards and Technology (NIS1), that are available for use in
assessing and correcting s\JCh security deficiencies.

ONC 's primary mission is to promote thc adoption of health IT in support of improved heaJtbcare: better
outcomes, fewer errors, less cos\. ConseqUClltly, in the early stages ofadoptioo effor\>; under HITECH,
ONe has wo.ted to strike the right ba lance between ensuring the security ofllealth information among new
adopters while not creating such an onerous burden oftcchnical requirements that the primary adoption
goal would fa il to be achieved. By the end of the IIITECIl-related wave of health IT implementations in
20 15, ONC expects to have a well developed set of certification criteria thaI, coupled with practices
initiated WIder the CMS meaningful use rule. will form a strong security framework for the use and
cxcbange of electronic health information.

Adoption is not the whole story, however. There are many health IT users who are not eligible for
Meaningful Use incent ives. But unless the entire bealth IT ecosystem panicipate5 in good security
practices, the well secW"C could face risk from the less secure. Therefore, ONC addresses security and
cybersecurity at the enterprise leve l, with a strategic plan that considen all components oftbe ~ater world
of heahh IT. HlTECH required ONC to revise and update its Federal Health IT SltlItegic Plan. A key
eienx:nt of that plan is heallh IT security. ONe's Office of the Chief Privacy Officer is in the fmal stages
of drafting a comprebell.'livc security strategic plan that details its plans in this regard. ONC agrees wi th the
sentiment expressed by HITSC vice-<:hairman John Halamka: "security is an end-to-end process.." We
support the visioo of enterprise -class health IT security and have taken clear steps to bring this vision to
liuitioll. It is a task neither fast nor casy, but it is one to which ONC remaill.'l fully committed.

Tecb niul Comments

Pal1;e 2 (DITECH, flnal parauapb)
      '"ONe published an Interim Final Rule (75 Fed. Reg. 20 13 (2010)) containing the initial set of
          standards, which SupelSCded the interoperability speo.;ifications adopted before HITECH's
          enactment."

    This statement is inaccurate. The standards adopted in ONC'slFR did not supersede the
        interopeTllbility specificatioll$ adopted prior to the HITECH Act. We recommend a period be
        added to this sentence after ·'standards" and the rest of the language deleted.

    Page 2, last sentence iDaccurately describes the breach notifi~tion rule. We recommend that it be
        rewritten to read as follows:
    Pursuant to HITECH, the InlCrim Final Rule established regulations requiring covcmd entitics to notify
        affC(:ted individuals, the media, and the HH S Secretary following a breach of theiTprotected bealth
        infollllltion.



                                                                                                                2
                                                                                                                   Page 3 of5




O IC Reco m llltDda tion I

[ONC should] broaden its focus from interopetability spec ifications to also include   ~ll-developed    general
IT security controls for supporting s)'S tems, networks, and infrastructure.

ONCRWlOUH I

ONC eOTlCW"S with OIG tbat "general IT security controls" serve an important PW]XISC and are necessary to
e nsllfC the overa ll protection of the confidentia li ty, integrity, and availabili ty ofhealth information. As
O IG notes o n page 2 of the dra ft rcpon , the Office for Civil Rig hts (OCR) is fCSJIOIlSible for regulating
covered entities and their compliance with the Health Insurance Portability and Accountability Act
(H IPAA) Security Rul e. However, in aceordancc with its mission, ONC bas been (and will continue 10 be)
proactive in he lping p roviders safeguard the privacy and security ofpcrsonal health information.

ONC has used iL~ authority to rcguLstc the certification criteria and standards for certified health
information tec:hnology 10 ensure the avai labi lity of application security controls. ONC will worlc. with the
FACAs established under the HITECH Act to actively explore the l'ea$ibility of adding general IT sOClUity
controls, such as encryption of portable media and two-factor a uthenticatio n, to the certi fication criteria.

In addition, ONC has developed training and tools, such as the Privacy and Security Framework Toolkit
that ONC launched in 2008, and more recently tools and materials streamed OIIt through ONC's 62
Regional Extension Centers who are engaged in !\Ctive outreach to healtbcare providers. These materials
inc lude security awareness literature (and soon, a security awarelle5!l video), a detailed checkl ist covering
all 10 security domains, and an automated risk analysis tool. Funded products now in development for the
REClI inc ludc a security capability assessment. incident response planning and training, and continu ity of
opcratioDll training. For health information exchanges (HIEs), ONC is developing an enlCTprisc-class
resi liency p lan based on a d eep analysis o f the health information e xchange landscape and its risb and
vulnerabilit ies. Tbe above a~tivit ies arc the core eleme nts ofONC's shon-rerm security s trategy, e ffective
SeptembeT 2010, with goals to lIIIdress the pressing security issues re lated to rapid health IT and HIE
adoption.

ONC bas worked closely with OCR, which has the authority 10 estab lish gcnc:ral lT security standards
through the HIP AA Security Rule, on a number ofgeneral IT security issues, including the development of
security guidance On how to render protec ted health information (PHI ) unIL<;able, unreadable, and
indecipherable for the purposes of the DeW breach notification provisions included in the HITECH Act. To
this day, ONC continues to work with OCR and NIST on this efTon .

ONe wi ll continue to f""us on broad health IT security issues and is currentl y working to identify
remaining gaps when:, within ilS miSSioDand scope o frcsponsibility, it ean address seeurity across the
health IT enterprise with tools, techniques, research, rccommcoo.tions and, where appropriate and within
its .",thority, regu la tion.

QIG ReCOmmendation II

[ONe should] use its le adership role to provide guidance 10 the health industry on established general IT
secwity standards and IT industry sec urity best practices

ONe ReSPOnse II

ONe concurs with OIG 00 the importance o f disseminating sec:urity princip les and practicc! as they apply
to health IT. As part ofONC's efforts to work with FACAs and relevant Federal partners to bolster
security eootrol" will continue to issue recommendations and guidance to the health industry o n health IT
security best practices.




                                                                                                               J
                                                                                                                 Page40fS




As described above. ONC has taken a leadcr!!hip role in promoting health IT s«urity controls through its
educatioll and ouln:ach activities. In additioll, ONe has provided (and will cOlltinue to provide) practical,
hands-on security management assistance through the Regional ~tellSion Centers. In addition, ONC
participates wide ly in public outreach programs through !<pCaking engagements, conferences, and
workshops. ONC cootinues to sponsor health imormation exchange technology, s uch as the Direct project
and NwHIN, both of which have developed strong security protections around health infonnation
exchange. In FY 2010, ONC leadcnllip and s taifpanicipaled in approximately 20 security and privacy
related public engagements, induding the Health Information and Management SystCUl.'l Society, HIPAA
Summit, HIPAA Summit West, RSA, Symantec Govenunent Security, Sman Cards in Government,
International A!.soI;iation ofPrivacyProfessionais, Information Systems Security Association, lnformation
SysteUl.'l Audit and Contro l Association, and other!!.

OIG Rccom,mcodatjQQ 1II

[ONe should] e mphasize to the mediCliI community the importance of general IT security

ONe Resl!OllK III

ONC concurs with O IG that it is vitally important to promote awareness of general IT security within the
medical community. ONC has bun active in reaching OIlttO individual providen througb the Regional
Extension Centers, Beacon Communities, Health Information Exchanges, each of which operates a Privacy
and Security Community of Practice, and through SHARP security research activities which rellCh the
academic medical community. ONe has also ensured the inclusion of security and privacy education in
hea lth IT curricula developed underONC grants. In fiscal year 20] I, in collaboration with OCR, ONC will
launch a Sccurity/Cybcrsccuritycommunications campaign to ra ise awareness of and adherence 10 high­
quality health IT security practices.

OIG RecQ!!II!!endatiQQ IY

[ONe should] coordilwue its work with CMS and OCR tQ add general IT security contro ls where
applicable.

ONe Response IV

ONC concUJ$ with OIG's finding that coordinatioD among ONe, CMS, and OCR is crucial to promotiDg
the adoptioD of general IT security controls for health IT. ONC has coUaborated extCItsively with CMS
throughout Stage I of Meaningful Use. The next two Stages ofmcaningfil l usc and launching of the
communications p rogram mentioned above will provide additional opponunities for ONe to collaborate
with its panners, inc luding eMS and OCR, on bow best to raise the overall level Qfhealth IT security with
certification criteria and implementatiQn incentives.

ONe is engaged in on-going collaboration with OCR, fQr example by providing technical researcb and
recommendatiQns on emerging security technologies and tec hniques, which OCR has used to infonn its
ru lemaking and guidance. In tum, OCR has collaborated with ONe by provid ing input 10 ONC security
and cybcrsecurity programs and products tQ insure that our effQrts on security are s ynergistic and non­
dupliutive.

CQnc lu.~iQn


ONC has an extensive pomol io ofinitiativcs (that are completed, in process, Qr in the planning and
fonnulation stages) that seek to prQmote increased security and the public 's Imst in health IT technology
and elocU"Oflic health information exchange. In the interest Qfbrevity, we have not detailed all of ONe's
initiatives in Qur COl1UllCnts to this O IG report.

ONe thanks O IG for its efforts on this rcport and fQr addressing areas of future growth for ONe's security
p rogram. We look forward to continuing to work with OIG to assess and strengthen the u.nderlying trust



                                                                                                             ,
                                                                                                         Page 5 of5




fabric without which our ml!<&on 10 Improve hcahhcan:: through widespread adoption and meaningful usc
of health IT could be at risk




                                                                                                        ,

